<html>
<title> - HEARING ON THE 2008 ELECTION: A LOOK BACK ON WHAT WENT RIGHT AND WRONG</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 HEARING ON THE 2008 ELECTION: A LOOK BACK ON WHAT WENT RIGHT AND WRONG

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                 HELD IN WASHINGTON, DC, MARCH 26, 2009

                               ----------                              

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html





 HEARING ON THE 2008 ELECTION: A LOOK BACK ON WHAT WENT RIGHT AND WRONG

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                 HELD IN WASHINGTON, DC, MARCH 26, 2009

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
50-807                    WASHINGTON : 2008
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              DANIEL E. LUNGREN, California
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
               Victor Arnold-Bik, Minority Staff Director
                                 ------                                

                       Subcommittee on Elections

                  ZOE LOFGREN, California, Chairwoman
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
  Vice-Chairman                      GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama

 
 HEARING ON THE 2008 ELECTION: A LOOK BACK ON WHAT WENT RIGHT AND WRONG

                              ----------                              


                        THURSDAY, MARCH 26, 2009

                  House of Representatives,
                 Committee on House Administration,
                                 Subcommittee on Elections,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10 a.m., in room 
1310, Longworth House Office Building, Hon. Zoe Lofgren 
(chairwoman of the subcommittee) presiding.
    Present: Representatives Lofgren, Gonzalez, Davis of 
Alabama, McCarthy, and Harper.
    Staff Present: Liz Birnbaum, Staff Director; Tom Hicks, 
Senior Election Counsel; Janelle Hu, Election Counsel; Jennifer 
Daehn, Election Counsel; Daniel Favarulo, Legislative 
Assistant; Kyle Anderson, Press Director; Kristin McCowan, 
Chief Legislative Clerk; Gregory Abbott, Policy Analyst; Peter 
Schalestock, Minority Counsel; and Karin Moore, Minority 
Legislative Counsel.
    Ms. Lofgren. Good morning, and welcome to the first hearing 
in the Committee on the House Administration Subcommittee on 
Elections. It is I think appropriate as we move into the 111th 
Congress that we take time to contemplate the past, and so 
today's hearing is part of that process, to focus on the 
elections, what went right, what went wrong in the last year, 
and to set the stage for whatever action we may need to take as 
a subcommittee in the future.
    The good news is that we did not encounter severe problems 
throughout the United States in the general election last year, 
but the bad news is that problems voters and election officials 
faced in many cases were the ones we had been aware of and had 
been unable to improve upon.
    The election system was tested in November with 130 million 
Americans voting in the highest turnout in 40 years. There was 
an encouraging increase of 3.5 million newly registered voters, 
up 64 percent from 2004. However, many of those voters did not 
have the chance to actually cast their ballot and have it 
counted. An estimated 4 million registered voters were unable 
to vote because of administrative problems in the election 
system.
    According to newspaper accounts, tens of thousands of 
eligible voters were removed from the voting rolls or blocked 
from registering. Our witnesses today will account for some of 
those instances, including purging of voter rolls by some 
States, and rigid matching requirements.
    We have heard anecdotally about polling locations where 
voters faced photo ID requirements that caused confusion not 
only for the voter, but for poll workers, as well as confusion 
over issues, plus the increase in new voter registration 
databases, provisional ballots and the like.
    Now, the successes of the November 2008 elections are many, 
and election officials as we look at what went wrong also need 
to be applauded for all the things that went right. 
Jurisdictions were prepared. They hired more poll workers, they 
implemented contingency plans, leased voting equipment. And the 
number of States allowing for early voting, either by no 
excuse, absenteeism voting or in-person voting, increased, and 
it appears that a third of the general election voters actually 
cast their vote before election day. It is pretty clear that 
this had the effect of easing the pressure on the election day 
itself for that unprecedented turnout. So we are eager to hear 
more about that.
    We have some terrific witnesses here today who are going to 
be able to not only celebrate those who worked hard and made 
this a success, but help us as we look to what we can do here 
in the House to improve things further.
    I would note this is not about my bill, but I have 
introduced H.R. 1719, the Voter Registration Modernization Act. 
This legislation would allow any eligible citizen to register 
to vote up to 15 days before election day over the Internet for 
all Federal elections occurring after January 1st, 2014. I 
think at some future date I hope that we will be able to have a 
legislative hearing on this bill, but this is just a 
preliminary step to get a survey of the entire scene.
    The Election Assistance Commission I am sure will pay close 
attention to the testimony today and determine their next steps 
about what the EAC can do to better assist election officials 
in their efforts to improve election administration. And while 
we can have hearings and pass legislation, in the end, so much 
of the responsibility is up to the EAC to ensure that they can 
fully support through information standards election officials 
in their duties.
    So I want to thank all of the witnesses, and I would now 
turn to the ranking member of this subcommittee, Mr. McCarthy, 
to see if he has an opening statement that he would either like 
to give or put into the record.
    [The statement of Ms. Lofgren follows:]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. McCarthy. Thank you, Madam Chairman. I, one, appreciate 
the hearing, but, two, I apologize for being a little late. I 
have two hearings going at once. We had Financial Services with 
some votes, and now we have Secretary Geithner over there. But 
I feel this is important as well.
    I thank the Chair for calling today's hearing. In order to 
move forward, it is important to understand where we have been, 
and I welcome the opportunity to examine what worked well in 
2008 general elections, as well as what could be improved as 
the 2010 election approaches.
    In the lead-up to the 2008 election, we heard countless 
stories from the media about the great burden that 
unprecedented turnout would place upon our Nation's voting 
systems. Some even touted doomsday predictions that the 
electoral process would collapse under the strain.
    Madam Chair, as we sit here several months into the new 
Congress and the new administration, I will paraphrase Mark 
Twain by saying that the reports of the death of our Nation's 
voting system were greatly exaggerated.
    While no election of this size and scope will ever be 
perfect, we have heard of no large scale voting issues or areas 
where a particular population was disenfranchised due to 
weakness in the system. There have been anecdotal reports of 
problems, and I expect we will hear cases from our witnesses 
today that will cause us concern and warrant further scrutiny. 
But given the enormous challenges that were faced in the 2008 
elections, we must also give credit where credit is due; 
namely, with our State and local election officials.
    As I have often said, our elections should be run by those 
who know the electorate best. Any time the Federal Government 
tries to interfere with what should be a State-administered 
process, we run the risk of imposing a one-size-fits-all 
solution to a unique problem.
    I look forward to receiving testimony from our witnesses 
today on how to assist State and local election officials in 
carrying out their duties while not stifling their ability to 
effectively administer their elections.
    While the 2008 elections ran rather smoothly, there is one 
area in which we continue to fall short, ensuring that the men 
and women of the U.S. military who are willing to give their 
lives in defense of their country from locations around the 
globe are able to cast a ballot that will be counted.
    As you will recall in the last Congress, I introduced H.R. 
5673, the Military Voting Protection Act, or MVP Act. The bill 
was endorsed by Vets for Freedom, the Nation's largest veterans 
organization for those who serve in Iraq and Afghanistan. It 
was written to ensure that military personnel are not left out 
of the election process while serving their country overseas.
    Studies have shown that our military personnel overseas 
have cast votes that were not counted due to lengthy delivery 
times involved in returning the ballots to the United States. 
It is clear that the military personnel serving overseas has 
the largest disadvantage when attempting to participate in our 
electoral process, yet Congress has sat idly by and has done 
nothing to protect their constitutional right while they put 
themselves in harm's way to protect us.
    As our witnesses from the Election Assistance Commission 
who appear before us today will recall, in September 2007 the 
EAC released the report on military and oversea absentee 
voting, which found that the third largest reason for rejected 
ballots was that they were received by the election offices 
after the deadline stipulated by State law. The EAC findings 
also suggested that roughly 10 percent of all uncounted 
military and overseas absentee ballots were rejected because 
they were received past the required deadline.
    In particular, I look forward to hearing from our EAC 
commissioners today as to what can be done to ensure that our 
Nation's Armed Forces are not disenfranchised simply because 
they are serving our country overseas.
    Again, I thank each witness for the time they have spent 
preparing for today's hearing. I look forward to receiving your 
testimony.
    Ms. Lofgren. The gentleman yields back. Other members will 
be invited to submit their statements for the record.
    At this point I would ask unanimous consent to put the 
following documents into the record: A report by the Asian-
American Legal Defense and Education Fund on the 2008 election; 
a letter from the ACLU on voter registration issues and the 
2008 election; a statement by Mr. Miles Rappaport of DEMOS; a 
report and letter from Fair Vote on the 2008 election; and a 
statement from Project Vote. Without objection, those reports 
will be made part of the record.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Lofgren. We now turn to our first panel. It is a 
pleasure to introduce them.
    We have first Gineen Beach, who serves as the Chair of the 
Election Assistance Commission. She was appointed by President 
Bush in October of 2008. Prior to her appointment, Ms. Beach 
was the Minority Election Counsel with this committee as well 
as an election law adviser to former Maryland Governor Robert 
Ehrlich. We welcome Ms. Beach back to the committee in her new 
role and look forward to her testimony.
    We also have Ms. Gracia Hillman. Gracia is currently the 
Vice Chair of the Election Assistance Commission and has served 
on the Commission since her appointment in 2003. Ms. Hillman's 
prior work experience includes having served as Executive 
Director of the League of Women Voters of the United States, 
the Congressional Black Caucus Foundation, and the National 
Coalition on Black Voter Participation. It is an honor to have 
you back again, Ms. Hillman.
    Mr. George Gilbert is the Director of the Guilford County 
Board of Elections in North Carolina. He served in this 
capacity for over 20 years, where he has developed a wealth of 
knowledge in election administration issues. He has 
participated in many working groups and task forces that 
include the Election Center's National Task Force on Election 
Reform, the National Academy of Science Electronic Voting 
Workshop, and the Election Assistance Commission's Working 
Group on Election Management Guidelines.
    Finally, we are delighted to welcome Mr. Keith Cunningham. 
Mr. Cunningham is the Director of the Allen County Board of 
Elections in Ohio. He also has served as President of the Ohio 
Association of Election Officials, as well as on the EAC Board 
of Advisors.
    Welcome to you all. As you know, your full written 
statements will be made part of the record. We ask that your 
oral testimony consume about 5 minutes. There is a little 
machine there that we hope is working today. When the yellow 
light goes on, it means you have about a minute left to 
conclude your statement. We ask that you try and stay within 
the 5 minutes so we will have an opportunity to hear from all 
of the witnesses.
    We would like to begin with you, Ms. Beach.

STATEMENTS OF THE HON. GINEEN BEACH, CHAIRWOMAN, U.S. ELECTION 
     ASSISTANCE COMMISSION; THE HON. GRACIA HILLMAN, VICE-
    CHAIRWOMAN, U.S. ELECTION ASSISTANCE COMMISSION; GEORGE 
  GILBERT, DIRECTOR, GUILFORD COUNTY BOARD OF ELECTIONS; AND 
  KEITH CUNNINGHAM, DIRECTOR, ALLEN COUNTY BOARD OF ELECTIONS

               STATEMENT OF THE HON. GINEEN BEACH

    Ms. Beach. Thank you. Good morning, Chair Lofgren, Ranking 
Member McCarthy, and subcommittee members. Thank you for 
inviting us to be with you today.
    The 2008 general election was a highly anticipated 
exercise. Expectations were high and scrutiny was intense. 
Election officials worked to anticipate every possible 
scenario, and their efforts certainly paid off. We had a few 
glitches, but contingency plans were in place.
    For example, in Connecticut, polling places were equipped 
with backup voting machines and memory cards. Los Angeles 
County was hit with floods and power outages. They moved the 
equipment and voting continued until the power came on. Voters 
in Rockdale County, Georgia, kept voting during a power outage 
because the voting machines were equipped with backup 
batteries.
    Election officials conducted preelection testing to make 
sure voting equipment operated properly. They explored ways to 
maximize traffic flow in polling places and they had extra 
ballots on hand. However, preparation and planning doesn't mean 
much without poll workers.
    In the 2008 election, officials tried creative approaches 
to increase their poll worker training ranks. Thanks to the 
funds provided by Congress, the EAC helped by distributing 
grants to recruit college poll workers. The grants were crucial 
in recruiting the next generation of poll workers.
    I want to take a moment to thank those citizens who served 
our country and their community in the polling place. In 
February 2008, I served as a poll worker in my home precinct. 
On that day, I arrived at the polls at 5:45 a.m. and was not 
released from my duties until 10 p.m. As the polling hours were 
extended due to increment weather. It was certainly a long day, 
and I appreciate all of the hard work that goes into 
administering an election.
    As of today, most information available about the 2008 
election is anecdotal. The EAC's election day survey provides a 
method to quantify a successful election. The data we collect 
from States will give us concrete information about how, where 
and when Americans vote. This raw data is not a sampling, and 
we expect to complete the survey this fall and will be glad to 
present the results to the subcommittee.
    We have come a long way since 2000, but there is still a 
lot of work to be done. The EAC must continue building a 
credible, rigorous certification program that States can rely 
upon. We have to do more work to recruit not only the next 
generation of poll workers, but also the election officials of 
the future.
    Overseas and military voters deserve better. According to 
an EAC study, a majority of absentee ballots sent to military 
and overseas citizens that were not counted during the 2006 
election had been returned to election officials as 
undeliverable. Improving the transmission of ballots would help 
increase voting rates among our military and overseas voters.
    I commend Ranking Member McCarthy and Congresswoman Maloney 
who are working very hard to find solutions to the problems 
that our overseas voters face.
    The EAC's mission is to assist in the effective 
administration of elections, and we stand ready to provide 
Congress, election officials, the public, and State and local 
officials with tools to meet these challenges.
    Thank you, and I look forward to your questions.
    Ms. Lofgren. Ms. Hillman.

              STATEMENT OF THE HON. GRACIA HILLMAN

    Ms. Hillman. Good morning, Chair Lofgren, Ranking Member 
McCarthy, and members of the committee. For the record, my name 
is Gracia Hillman. I serve as the 2009 Vice Chair of the 
Election Assistance Commission. Thank you for this opportunity 
to testify on the historic election of November 2008.
    The 2008 election cycle energized American voters in ways 
that we have not seen since the 1960s. By all accounts, most 
things went right on election day. This is supported by a 
survey of 10,000 American voters. According to that survey, 83 
percent said their polling place was very well run, and 75 
percent said they were very confident their vote was counted as 
cast.
    We need to remember that there is no activity in the United 
States like voting on a presidential election day. To put that 
in perspective, over 100 million people voted within an 18-hour 
window on November 4, 2008. Approximately 2 million people 
provided customer service to those voters. At least two-thirds 
of those workers were temporary, one-day employees who we 
commonly refer to as poll workers. There are well over 100,000 
polling places scattered across the country in all of our 
States. I have yet to hear of any other same-day activity 
remotely similar to this exercise.
    As you know, Madam Chairman, there are no do-overs with 
elections. NASA can scrub a launch if need be. Manufacturers 
can delay a rollout if the product is deemed not ready. But 
election administrators must be ready for election day, 
irrespective of any and all unanticipated circumstances.
    There were random problems on election day, but we should 
not be unduly troubled by these revelations. Voting is mostly a 
human exercise and humans make mistakes. Nonetheless, all 
perceived and real problems need attention. Let me take a 
moment to address a couple of the most common complaints:
    Long lines at the polls. I witnessed early voting lines in 
Florida that exceeded 2 or more hours. Conversely, on election 
day, the longest wait I observed in Florida was about 30 
minutes. The problem of long wait lines might be episodic in 
some jurisdictions and chronic in others. Nonetheless, election 
officials are aware that long waits to vote are a problem for 
the communities and voters they serve.
    Confusing voter registration and identification 
requirements. Voter registration and identification procedures 
get quite complex when varying State laws are layered on top of 
Federal requirements. Missed deadlines result in 
disenfranchisement, so it is no wonder that there are calls 
from the community to streamline these procedures. Perhaps the 
citizens most affected are college and university students and 
our newer voters.
    Accurate counts. Earlier I noted that 75 percent of survey 
respondents felt very confident that their vote was counted as 
cast. But that means that 25 percent had doubts. Voters deserve 
accurate and reassuring information about the current state of 
voting systems. Since the passage of the Help America Vote Act, 
America has undergone a major transition with the technology of 
our voting systems. EAC continues to develop Federal voting 
system standards to assure accuracy. Election officials need to 
continue to encourage interested voters to observe and 
participate in the logic and accuracy testing of the voting 
systems that will be used in their communities.
    Provisional voting. On the one hand, provisional voting is 
understood as fail-safe voting so that no voter is turned away 
from the polls. Our 2006 election day survey reported that 1 
percent of voters cast provisional ballots. In real numbers, 
that means 850,000 provisional voters. We do not yet have the 
2008 numbers, so I use 2006 as an example.
    Based on that, there is growing concern that provisional 
voting is being used as a substitute for election day lists 
that should be accurate and complete. Moreover, voters do not 
understand why the provisional voting process is not uniform 
across the country.
    In summary, Madam Chair, election officials are to be 
commended for their excellent work. At the same time, voters 
should be encouraged to register complaints, election officials 
should be vigilant about identifying problems, and together 
they should develop reasonable remedies that can be adopted as 
quickly as possible.
    Thank you for this time, and I look forward to answering 
your questions.
    [The statement of Ms. Beach and Ms. Hillman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Lofgren. Thank you very much, and for your service on 
the Commission.
    Mr. Gilbert.

                  STATEMENT OF GEORGE GILBERT

    Mr. Gilbert. Thank you, Madam Chairman. I agree with what 
she said.
    Ms. Lofgren. Okay.
    Mr. Gilbert. Good morning. I am George Gilbert, Director of 
Elections for Guilford County, North Carolina. For those of you 
who don't know, Guilford County is where General Cornwallis 
began his retreat 228 years and 10 days ago. Greensboro is 
named for General Nathaniel Green, not because we have lots of 
trees, although we have that also. So if you are ever visiting 
there, we have a wonderful national battlefield site there that 
very few people know about.
    As for the 2008 general election, what did we do in North 
Carolina, that is, what did we do correctly? I have attempted 
to lay out in detail many of the things that we did right in my 
written statement. The successes I have documented with respect 
to same-day registration, early voting, electronic poll books 
and provisional voting in particular are all very worthy 
improvements, and I think we made a lot of progress in those 
areas. I have also tried to document some of the things I think 
were problems and will be continuing problems.
    When I circulated my draft testimony to several of my 
trusted and respected colleagues--Keith wasn't one of them, by 
the way.
    Mr. Cunningham. Trusted, or respected?
    Mr. Gilbert. I will leave it open. One of them warned me 
against leaving the impression that election administrators 
think that everything worked fine and that nothing needs to be 
changed. I hope in my 5 minutes to dispel that notion.
    Certainly we have already heard about millions of 
registered voters or millions of eligible voters who were not 
allowed to vote in 2008 due to faulty voter registration lists 
and procedures. In North Carolina, that has not been our 
experience.
    We did have 105,000 same day registrants during early 
voting who would not have been able to vote otherwise. But we 
had an additional 27,000 provisional ballots cast on election 
day that were not counted. The vast majority of those were not 
counted because those people failed to meet the registration 
requirements of North Carolina.
    For the most part, the lists were accurate and complete and 
they were in compliance with State law. Nevertheless, I think 
we will continue to have millions, certainly thousands of 
people, who lose the franchise in future years through their 
own failure to meet the requirements of voter registration in 
their State.
    In my view, that raises the question to you, is voting a 
right of citizenship? If voting is a right of citizenship, does 
the government have a greater responsibility to partner with 
its citizens in guaranteeing that right?
    No matter how many barriers to registration we remove 
through improving our registration process, we are going to 
continue to disenfranchise voters if citizen-initiated 
preregistration is required. 2008 I think demonstrated in many 
States that measures such as our same day registration and 
election day registration can certainly ameliorate the effect 
of the registration requirements. But these palliatives will 
actually only exacerbate the competition between voter 
registration and voting itself.
    In my written testimony, I have discussed at length many of 
the drawbacks of executing voter registration in the middle of 
the voting process. It delays and frustrates voters, it puts 
extreme burdens on the administrative process, and I am sure it 
complicates and adds expense to your campaigns. If the 
objective is to enable eligible citizens to vote while 
excluding those who are not eligible, the States must assume a 
more active role in identifying the eligible voters and 
enabling their right to vote.
    I think there are clear advantages to both government and 
its citizens of establishing the best possible pre-election 
list in some fashion. It is doubtful that the government alone 
can produce a complete and accurate account of eligible 
citizens. Establishing residence for voting purposes actually 
requires citizen input. It cannot be a burden placed on the 
government itself.
    While I am here today representing my own county and my own 
experience, I also cochair the Election Center's Legislative 
Committee. Among the chief questions we are investigating at 
this time is whether or not automatic registration of eligible 
citizens would be preferable to the existing system.
    My prediction is that we will find a blend of government 
and citizen initiatives far superior to anything we are doing 
or perhaps even contemplating today. Same day and election day 
registration can certainly contribute and provide an important 
safety net for the voters that we miss in this process, but I 
think that both same day and election day will work much better 
if we minimize their use, rather than relying on them. The 
Election Center will welcome the opportunity to work with this 
committee to find the blend of registration options that will 
make voting truly a right of citizenship.
    Thank you for this opportunity to testify. I will be happy 
to answer any questions.
    [The statement of Mr. Gilbert follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Lofgren. Thank you very much. Now we turn to Mr. 
Cunningham.

                 STATEMENT OF KEITH CUNNINGHAM

    Mr. Cunningham. Thank you.
    Madam Chairman, Mr. Ranking Member, members of the 
committee, thank you for the opportunity to speak with you 
today. I bring you warm regards from my colleagues in the 
Buckeye State.
    In 2008, our election system served the largest number of 
voters and realized the largest voter registration numbers in 
our history, successfully. So I want to begin by saying 
unequivocally and without hesitation, I do not concur with 
those who assert that America's election system is broken.
    In 2008, America's election officials toiled under the 
pressure of media, advocates, political parties, lawyers, 
lawsuits, judicial rulings, excessive public records, 
legislative changes, and the prediction of total meltdown. And 
despite those distractions and disruptions, local election 
officials across America, including those of us in Ohio, 
arrived at election day prepared. Much of that preparation was 
due to many of the materials provided to us by the Election 
Assistance Commission, I would add.
    In Ohio, we saw absentee voting skyrocket. Voters literally 
turned our previously mail-based absenteeism program into an 
in-person early voting program. This could have been a disaster 
but for the fact that our locally controlled boards were able 
to be flexible with those circumstances and successfully 
addressed the wide variety of local needs.
    I want to say to you that there is no standard election. 
Every one is different, every one has different dynamics, and 
every one requires consistent and diligent supervision on a 
day-to-day and sometimes hour-to-hour basis, and that can only 
be accomplished through hands-on local approaches.
    This is why I believe America's voters are best served as 
much as possible with a decentralized voting system. Without 
the ability of our election generals to make certain calls on 
the front lines as they need to, we will certainly throw our 
system into paralysis.
    While I believe the 2008 election was a success for 
America's election officials, I acknowledge there are always 
things that we can do better, and in that spirit I would 
respectfully like to offer several suggestions that I believe 
can improve elections in America.
    First, we must provide better education and training to our 
Nation's local election officials. This is a point that has 
been lost over the last few years in the discussion about poll 
worker training. I am referring to programs like the Election 
Center's Certified Election and Registration Administrator 
Program that George and I are both graduates of.
    We must begin to understand that elections are conducted 
best in stable environments, and since 2000 we have seen 
legislative changes, at least at the State level, for nearly 
every 2 years under the premises of election reform. Many of 
those changes are actually knee-jerk reactions to anecdotal 
reports, and I believe it is time we give legislation a bit of 
a rest.
    Legislative changes have been occurring at such a rapid 
pace that election officials, poll workers, and even voters are 
straining to comprehend just what is required of them.
    We must accept that every human problem is simply not 
something we can cure with Federal legislation. I believe we 
must begin to advocate the right to vote carries with it a 
certain personal responsibility, and registration is one of 
those responsibilities.
    Registration statistics are planning tools for election 
administrators, and if indeed the trend is to move away from 
the electronic-type machines to paper-based ballot systems, it 
is going to be more important than ever to understand how and 
where our resources need to be employed.
    If voters are to be served well, then we need to know how 
many of them we can expect so we can print the appropriate 
number of ballots, have them available in the right places and 
quantities, provide enough voting equipment, hire enough poll 
workers, guarantee enough parking, along with the 101 other 
things that we need to do to properly prepare for voters on 
election day.
    Finally, I believe that we must realize that the election 
infrastructure is currently not capable of doing what some 
think it can or should. Most elections offices were using 
punchcard systems just 3\1/2\ years ago, and we just have begun 
building databases after the passage of HAVA.
    The fact is, as a nation, we completely ignored investment 
in the infrastructure of our election system until after the 
failures of 2000. We have improved our technology, but we are 
nowhere near the sophisticated and mature systems utilized by 
other government agencies, and it is going to take us another 
10 years and perhaps millions if not billions of dollars to 
achieve that goal.
    In closing, I want to say to you that thousands of people 
like George and myself are working throughout the country every 
day to ensure the system, despite the intense levels of 
criticism it receives, is performing to its highest capacity. 
And while we may not always agree on what the right answer is, 
you can be assured that we are working hard to try to make this 
system work for all voters in our country.
    I also look forward to your questions.
    [The statement of Mr. Cunningham follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Lofgren. Thank you very much, Mr. Cunningham, and to 
all of our witnesses.
    We now have a time when the committee members have an 
opportunity to ask questions for as long as 5 minutes of the 
witnesses. I would turn first to our ranking member, Mr. 
McCarthy, to inquire if he has questions.
    Mr. McCarthy. Thank you, Madam Chairman. A couple 
questions. One, I want to thank you all for your testimony. I 
appreciate the opportunity that you would come. Part of it was 
what went wrong and what went right, and that is kind of what I 
wanted to focus on.
    Mr. Cunningham, I think you raised a couple very good 
points, ways to improve, but also about legislation. The one 
thing I have found--it is okay, you are a freshman.
    Mr. Cunningham. That is your ring?
    Mr. McCarthy. We have had so many changes in election law 
each time, it is almost take a little breather room, because we 
have found a process that actually worked very well, but let's 
see what worked right. You need a little time on this basis.
    But I saw where the New York Times' recent editorial said 
the States have far too much leeway in running elections. Does 
everybody agree or disagree with that statement?
    Mr. Cunningham. I abjectly disagree with that statement.
    Mr. McCarthy. Mr. Gilbert.
    Mr. Gilbert. I think that the States do an excellent job. 
We are all learning as we go along and as the environment 
changes. But elections are local, and in large measure you 
can't respond to those local factions with something that is 
uniform nationally.
    So, yes, I think the States have to take the lead. There is 
no harm in giving them direction and objectives, but the States 
have to take the lead there.
    Mr. McCarthy. Ms. Hillman.
    Ms. Hillman. I didn't see the article that you are 
referring to, but I would say that the States are certainly 
doing the appropriate job in conducting elections. However, I 
also believe that Congress has a responsibility with respect to 
Federal elections to make certain that its intention and 
concerns are addressed through the States.
    Ms. Beach. I believe that right now the way the 
Constitution is, the Federal law provides the States and local 
jurisdictions run elections. So it is really up to all of you 
to decide what you want to do. But the way the system works 
currently is the way it does.
    Mr. McCarthy. Now, I am the one that kind of got to the 
theme, I don't want to put any words in anybody's mouth, but 
the last election with all the anticipation and the turnout and 
the education of people, there was great fear that things would 
go wrong. I think overall it went rather well. I kind of take 
that from everybody's statement. But I still believe, is there 
a place that we can improve?
    Now, I believe we do have a disadvantaged group out there, 
and I believe it happens to be the military. I was wondering if 
anybody else has any comments on that, of ways we can improve, 
or if you disagree with me that maybe they are not? Starting 
with Mr. Cunningham.
    Mr. Cunningham. I believe that much of that improvement 
rests in the hands of the military. Boards of elections are 
somewhat limited. We can get the ballots out of our office, if 
indeed we are using ballots. But once they hit the mail 
service, then they are pretty much out of our hands.
    Mr. McCarthy. So if we had a tracking system, much like how 
we ship things now, if the military did something like that, it 
would be more helpful to you?
    Mr. Cunningham. I believe so. I believe if there was some 
direct way that we could actually get the--I am not faulting 
the United States mail service.
    Mr. McCarthy. It is difficult if you are overseas or 
someplace else.
    Mr. Cunningham. Correct. If we had a more direct way to get 
the ballots in the hands of the military, so that they--we 
don't know where most of the people really are. So if we could 
get the ballots more directly in the hands of the military, 
they could get those ballots distributed to where they need to 
go. It is a very unusual and unique situation, no doubt.
    Mr. Gilbert. The military is obviously highly mobile. Most 
of the ballots we get back undeliverable are primarily because 
those men and women in the military have moved. We mail a 
ballot to them automatically over a 2-year period, and they 
don't stay in one place for 2 years. So I think Keith is 
absolutely right, if we have a way of identifying where those 
people are.
    I would also say the same thing applies to our civilian 
population here at home. It is a highly mobile society, and as 
I pointed out in my testimony, you are going to miss a lot of 
people if you rely on their initiative. Obviously, the military 
people don't always take the initiative to let us know what 
their new address is. Neither do domestic civilians.
    We have to find some way that government can help better 
track where those people are.
    Mr. McCarthy. The only thing I find different with military 
than domestic, domestic gets to choose where they go, military 
tells them where to go. So we know that they are being moved. 
But if they had a tracking system on the ballot where you could 
track the ballot, because a lot of it, it doesn't get there in 
time, and the mail process for the military is not always going 
the same 2-day service somewhere in your State.
    If you could follow up on the answer, Ms. Hillman?
    Ms. Hillman. Sure. One of the things I would say about the 
2008 election cycle is that several jurisdictions were caught 
off guard during the primary cycles with not having sufficient 
number of ballots and long lines, so they had a chance to 
correct those issues for the general election. So the primary 
cycle served as sort of a trial run.
    With respect to the issue of the military, I really do 
think there is an appropriate role for the military to have 
those officers who are designated to take care of election 
issues to be a bit more engaged in helping the military to 
participate.
    The whole issue of how the ballot gets transferred, I must 
say that I am a believer that technology and Internet are the 
best answers to those problems. I understand security issues 
and concerns about security over the Internet. But when you 
have got citizens scattered throughout the globe and there is 
no other way, particularly for States with late primaries, to 
meet a tight window, then I think it is worth the research that 
the Election Assistance Commission will be doing on being able 
to use the Internet to reach those voters.
    Ms. Beach. As Chair of the EAC, one of my priorities is to 
look into military and overseas voters and see if there are 
ways that we can find solutions, because we are here to assist 
State and local election officials. We certainly will be having 
a hearing this spring on that and will be bringing in State and 
locals, because some of them have demonstrated and set up 
programs to deal with this issue, and hopefully we can share 
their best practices with everybody.
    Mr. McCarthy. Thank you for your answer, and thank you, 
Madam Chair.
    Ms. Lofgren. I turn to Mr. Gonzalez for any questions he 
might have.
    Mr. Gonzalez. Thank you very much, Madam Chairman. My only 
observation on assisting members of the military service: Until 
we have the Department of Defense fully engaged and 
participating willingly, it's just not going to happen. My 
sense of it is that we don't have that. I think we can do a 
whole lot, and I surely would like to join Mr. McCarthy in a 
certain effort, maybe not a particular legislative remedy that 
may be sought at this time, but it is worth exploring, because 
I think therein lies the answer.
    Mr. Gilbert, I am going to be looking at your testimony. 
Same day voter registration, in your jurisdiction what you did, 
you extended it during the early voting period.
    Mr. Gilbert. That is correct.
    Mr. Gonzalez. I am from Texas. Our early voting, we have 
about 2 weeks. Then it ends about a little bit more than a week 
before the election. Is that what you had?
    Mr. Gilbert. Ours ends on Saturday preceding the Tuesday 
election. It begins roughly 2\1/2\ to 3 weeks prior to the 
election.
    Mr. Gonzalez. And you indicated that you had 244,000 voters 
exercise the right to vote by way of same day registration, a 
quarter of a million?
    Mr. Gilbert. We had 105,000 statewide same-day registrants, 
which is about 2.5 percent of our total vote.
    Mr. Gonzalez. And then you indicate the verification 
process and such. And there is no doubt, because I think Mr. 
Cunningham said in his testimony, ``expecting someone to 
register 30 days in advance of an election is not a hardship in 
light of the chaos which could eventually develop without 
accurate registration roles.''
    By your testimony, Mr. Gilbert, you are saying as more 
people are aware of same day registration, the more they will 
participate. And of course, that is about order of 
participation.
    Now, everyone up here who has ever been in a campaign, and 
we all have, the greatest effort and the greatest expenditure 
of money to engage that potential voter is probably in the last 
30 days of an election as we lead up to it. Some people would 
say the best effort is exercised, and some people would say it 
is the worst effort, because all sorts of issues come to a head 
at that point. But truly, that is the maximized effort by the 
candidate.
    I don't know, now some people may disagree with that, but 
as we go into it, I assure you, it is those 30 days that really 
count. So I think that is when we engage the voter or we engage 
the interest.
    And I am a great believer in same day registration, but I 
think Mr. Cunningham has a concern. How do you address Mr. 
Cunningham's concern? And you expressed some reservations. But 
I think in your testimony you are not saying that you are going 
to abandon it. ``Limiting or discouraging this by letting their 
wait lines become longer and longer is not an acceptable 
option.'' But how do you address Mr. Cunningham's concern?
    Mr. Gilbert. I think the solution is for us to have the 
most effective and most complete database going into the 
election. I agree 100 percent with Keith on that.
    I agree with Ms. Hillman that we need to have those 
registration lists as complete as possible prior to the 
election so that we can in fact minimize the actual 
registration process during early voting or on election day. 
But I think in order to do that, the States themselves are 
going to have to take the initiative to compile those lists and 
to provide more complete lists, and not leave it completely on 
the voter initiative. If you provide same day or election day 
registration and all registration is just voter initiative, 
those numbers will grow larger and larger and larger and we 
will administratively not be able to handle that and it will 
clog up the entire system.
    So I think we need to compile those lists. The government 
needs to have a more active role in compiling those lists, and 
not simply wait for the voter to come register.
    Mr. Gonzalez. If same day registration results in greater 
voter participation, which at the end of the day we are all 
together on that, it is worth the effort. It is just a matter 
of logistics and the process to accommodate it.
    Mr. Gilbert. That is correct. If we have all of those 
people, if we have all of our residents and all of our citizens 
in our database on election day and all we have to do is look 
them up and have them declare their residence at that point, 
that takes care of the problem. They don't necessarily have to 
have filled out a registration application ahead of time.
    Mr. Gonzalez. Thank you very much, sir. I yield back.
    Ms. Lofgren. The gentleman yields back.
    Mr. Harper.
    Mr. Harper. Thank you. My phone is on silent, for those of 
you who may be concerned. I won't use the excuse we were in a 
Budget Committee hearing until almost midnight last night, that 
I forgot to change it back.
    Thank you for being here. This is an important issue, and 
obviously it is our desire that everyone who wishes to vote has 
that opportunity and every vote is counted and counted 
properly. I think we would all agree on that.
    I guess my question would be for Mr. Gilbert and Mr. 
Cunningham. In your respective States, when you talk about a 
database, I assume that database would be under the control of 
your Secretary of State and that it is still going to depend 
upon the local election commissioners to update and control and 
purge and change and make sure those are accurate lists.
    Would that be a fair statement?
    Mr. Cunningham. Yes, sir. I believe the local election 
official is the closest person to the voter and is the 
interface with the voter. So I think that information needs to 
come through the local official.
    But I will say this: There is a lot of criticism about the 
database purging, and local election officials tend to take a 
hit on that. I believe the problem is more a result of lack of 
clarity. Many of these regulations are somewhat cloudy in their 
scope. Again, that goes back to the issue of better education 
of local election officials and more clear direction from those 
that are passing legislation as to exactly what we should be 
doing in the area of purges and registrations.
    Mr. Harper. Along with that, are there any voter ID 
requirements in your respective States?
    Mr. Cunningham. Ohio has a voter ID requirement, and, quite 
frankly, it is driving some provisional balloting because of 
the address component. I think it is one of the laws of 
unintended consequences that has reared its ugly head there.
    I believe that if we maybe relieve the ID provision of the 
address component and strictly who the person is and confirm 
that identification, we will see a reduction in provisional 
ballots and a smoother election day.
    Mr. Gilbert. In North Carolina, the ID requirement for by 
mail registration is of course in accordance with the NVRA. 
They just have to prove that they are a person, who they are. 
They don't have to have the address confirmation. But the same 
day registration ID, that identification requires address 
confirmation, too, and I think that is appropriate for same day 
and election day registration.
    Mr. Harper. And that address or residence verification is 
done by any utility receipt, not necessarily a photo ID.
    Mr. Gilbert. It doesn't have to be a photo ID. It can be 
either a driver's license photo ID, or it can be a utility 
bill, a bank statement, things like that. There are a variety 
of things that confirm that voter's address.
    Mr. Harper. As far as any evidences that you have seen out 
there of voter fraud, any of you, has that been something that 
you felt is prevalent? We have certainly had documented 
examples in my own State of that taking place. Did you see that 
as an issue in 08?
    Mr. Cunningham. Well, I would address voter fraud this way. 
There is a lot of people that claim well, there is no voter 
fraud, so we don't need to do anything about it. I would 
respond by saying my home has never been broken into, but I 
still lock the doors when I leave. So I think reasonable 
measures that guard against voter fraud are well advised.
    Mr. Harper. Anybody else?
    Mr. Gilbert. I would just add that one of the reasons that 
we don't see much evidence of voter fraud is because we 
actually do look for it. We do monitor for that. We encounter 
things that we think are suspicious or out of the ordinary on a 
day-to-day basis in our local office and we look into those 
things. So voter fraud is something that at the local level we 
are very sensitive to and try to keep it out of the news, try 
to keep it from happening. We try to take preventive measures. 
I think many of our State laws also are directed toward that 
end.
    Mr. Harper. One final question dealing with military issues 
and how we can make sure that doesn't happen. It seemed to be a 
problem with us in my home State of Mississippi, that when the 
ballot in 2008 was finally approved, it was getting rather 
close, considering you were going to be sending it off and 
getting it back.
    Is there enough preparation time from the time your ballot 
is locally approved and sent off? Do we need more time to get 
it there as one possible solution to make sure we get these 
ballots back?
    Mr. Cunningham. Any time you have a date certain situation, 
time is of the essence. I fully concur with Commissioner 
Hillman. We need to be investing in the Internet opportunities 
that we have to serve our military. I think the military needs 
to engage it a little more.
    I will say that I think the component that requires us to 
automatically mail for 2 years to a military person is probably 
not working, because it is very unlikely that person is still 
where they were a year ago and we get a lot of those back.
    Mr. Harper. I thank each of you for your time.
    Ms. Lofgren. Thank you.
    Mr. Davis.
    Mr. Davis of Alabama. Thank you, Madam Chairwoman.
    Let me try to pick up two sets of questions with my 5 
minutes. The first one has to do with early voting. There is a 
lot of interest right now in the Progressive community, and to 
some extent, candidly, in the Democratic community in early 
voting there is a real embrace of it. I would sound one 
cautionary note about it.
    To me it seems that early voting favors whoever is ahead 
and whoever has the most money to spend on television and get 
out the vote efforts. Now, that happily, from my perspective, 
was Barack Obama in October 2008 and early November 2008. I do 
not have pitch perfect confidence in every election going 
forward my guy or my lady is going to be the person who has the 
most money and is ahead, and I think that is something that has 
to be appreciated.
    In election after election, what we see is that early 
voting locks in the political state of play in the race in mid-
October and early October, and that is a systematic bias that 
in some cases helps Dems and in some cases Republicans, but I 
don't think we can have a genuine conversation about early 
voting without understanding that and taking that into account.
    For example, the Tennessee Senate race in 2006. Harold Ford 
won a majority of the votes cast on election day. He lost by a 
reasonably comfortable margin in the early voting because his 
opponent, now Senator Corker, had the capacity to outspend him 
3\1/2\ to 1 on television, and if you are in an early voting 
scenario, it seems to me that when you take a hit in the polls, 
that is a hit in votes.
    Normally when you are subjected to a negative attack or a 
scurrilous allegation in the campaign, you have time to counter 
it by running your own ads, by getting another message out. 
Early voting, you are losing votes every time an allegation 
airs.
    Am I the only one with that perspective? Does anyone on the 
panel want to react to that observation? Mr. Gilbert?
    Mr. Gilbert. Most of the studies of the States who have had 
early voting, and certainly in our experience in North 
Carolina, have indicated that early voting typically does not 
increase turnout. The same people are going to vote who vote, 
whether they vote early or vote election day. You may have the 
moment-by-moment variables that are changing from day-to-day 
within a campaign affecting how the people are voting that day, 
but those variables are uncontrollable, whether they be 2 or 3 
weeks prior to election day or election day itself.
    So I think it is a kind of a crap shoot either way. You are 
taking a chance on what news is going to come out in headlines 
on Monday, the day before the election.
    In fact, in our experience, the early voting really has 
not--it may tend to favor one candidate or the other during 
that period, but it has not really been shown to have an impact 
on the final outcome of those elections.
    Mr. Davis of Alabama. This is what I would say, to give you 
an example. In my State of Alabama right now there is an effort 
underway by some legislators to create early voting in Alabama. 
And, frankly, their stated motivation is they think that it 
helps Democratic candidates. I just don't buy that. I think it 
helps whoever is ahead, and that won't always be the Democratic 
candidate.
    Mr. Cunningham, were you trying to jump in on that?
    Mr. Cunningham. Yes. My experience is that the turnout in 
early voting had to do with candidate motivation and on-ground 
tactics, not so much advertising. But I will say to you that I 
think this is one of the problems, if we tried to make 
decisions on election administration with political tactics in 
mind, we will never get the problems that we have solved.
    Mr. Davis of Alabama. I 100 percent agree with that. That 
is why I was trying to make the observation that we shouldn't 
do that.
    Mr. Cunningham. I believe the biggest question in front of 
us all is, is this still a 13-hour, one-day event. In 1952, 60 
million people voted for President. Last year, 130 million 
people voted for President. By and large, we are still doing it 
the same way. Early voting clearly takes the pressure and the 
panic off of election day.
    Mr. Davis of Alabama. Let me try to slip in one final point 
in my final 30 seconds. This is I suspect beyond the scope of 
this panel; maybe it is more of a Judiciary Committee question.
    As you know, Mr. Gilbert, you are from a Voting Rights Act 
covered State. As you know, the Supreme Court will be 
reviewing, I suspect in a few months, the question of whether 
Section 5 still has vitality. There are some that argue that 
Section 5 is cumbersome as far as the election process goes, 
cumbersome as far as the pre-election process goes. I disagree 
with that.
    I want to know if you could briefly speak as someone who is 
in a VRA covered State on whether you agree with the critiques 
of Section 5 or not?
    Mr. Gilbert. I happen to be a Section 5 county. Forty-five 
counties in North Carolina are covered by Section 5 pre-
clearance requirements. I have never found it to be cumbersome. 
I have never found it to interfere with our election process. 
And my personal experience is that it still serves a very 
worthwhile purpose.
    Mr. Davis of Alabama. I would just end, if I can, Madam 
Chairwoman, by echoing that, and hoping that we pass that 
observation on to the Judiciary Committee and include it as we 
think about possibly responding to what the Supreme Court may 
do on Section 5.
    Mr. Cunningham, I kind of like something you said. You 
mentioned the fact that, well, the fact that your house has 
never been broken into doesn't mean you never lock the doors. 
The fact that there is demonstrably less racial discrimination 
in every area of American life doesn't mean we get rid of Title 
7. The fact that there is less discrimination against women 
doesn't mean we get rid of Title 9. So it does not follow that 
simply because there is less race conscious voting than ever, 
we eliminate some of the safeguards that helped us get to the 
point where there is less race conscious voting than ever.
    I yield back.
    Ms. Lofgren. Thank you, Mr. Davis. Many of us serve also on 
the Judiciary Committee, so we will be able to bring those 
comments back.
    These have been good questions. I want to touch on a couple 
of items.
    Mr. Gilbert, your electronic poll books, do they update a 
voter's status in realtime?
    Mr. Gilbert. We do not. During the early voting period, 
that update is probably about every 30 minutes. We don't do a 
real-time update. We do it in a batch mode. That way we don't 
get shut down if we lose communication. That is the reason for 
it. We are updating the voter's central records on a periodic 
basis throughout the day.
    Ms. Lofgren. But every 30 minutes is pretty close.
    Mr. Gilbert. It is close to realtime.
    Ms. Lofgren. Very good. I am interested in the issue of 
overseas voting, including our military. It seems to me there 
are a number of issues, but one of the issues, as has been 
mentioned by Mr. Harper, sometimes the ballot is finalized, and 
by the time you mail it and then you mail it back, it is too 
late.
    Although there are security issues that have been 
expressed, and I am not sure yet been resolved, on Internet 
voting, it seems to me that if you are overseas, whether you 
are in the State Department or the military or whatever, and 
you know you are registered and where you are registered, if 
you were able to put in the Zip Code and download a copy of the 
ballot and fill it out and mail it in, at least you would solve 
that mail-out problem entirely. The safeguard would be you are 
signing it, and unless you are actually registered, the ballots 
aren't going to be counted by the election officials where you 
think you are registered.
    Wouldn't that work? Wouldn't that help a lot?
    Mr. Gilbert. We certainly used that. As a matter of fact, 
we use that technique when we are faxing ballots or something 
similar to that. The problem you end up with there is that you 
end up having to count those ballots by hand, and in 
jurisdictions where you have a substantial number of overseas 
voters, that would become very problematic.
    I personally don't see any greater security risks 
associated with Internet voting than I see with voting by mail 
in general. I think we can address those security issues, and I 
would certainly be in favor of moving more in that direction.
    Ms. Lofgren. Couldn't you, maybe the technology isn't here, 
but in California now and I think many States, and I think 
ultimately all the States are going to end up with scanned 
ballots because there is a paper record. You can do a scanned 
ballot that you downloaded and printed as well as that you have 
delivered, can you not?
    Mr. Gilbert. Well, the technology is not there for counting 
those automatically yet. Perhaps it could be done. With optical 
character recognition and things like that, we may well be able 
to. I know our vendor is working on tabulation systems that 
will read a ballot digitally and as a picture. That is 
possible. I don't know that much about the technology.
    Ms. Hillman. Madam Chair, if I may add that I think for the 
short term, for 2010 and 2012, it would seem to me that 
cooperation between the military and our embassies to 
facilitate voting would be one of the most efficient 
approaches. Technology will definitely be there. And I think we 
in the United States have to become comfortable with the use of 
technology in voting.
    The concerns about the lack of security exist in every 
single thing that we do in this country. And there were 
procedures in place, chain of custody and other things that 
protect the security.
    So I think you are absolutely right. It won't take but some 
research and development for us to have a touch-screen machine 
that serves all voters, including the disabled and the States 
that require putting ballots in many languages. It is 
efficient, it is cost-efficient and can produce a durable paper 
ballot that can withstand many hands, can be counted through a 
scanner, can be stored and archived for a period of time, and 
that the Internet can come into play. But I think given what I 
have heard in the recent years, we are probably a good 10 years 
away, I think, before this country is going to embrace the full 
use of technology for voting, the way we embraced the full use 
of technology for all our banking and bill-paying needs.
    Ms. Lofgren. I will just close by saying that certainly I 
don't think these are alternatives. We ought to be getting our 
military to be more aggressive in interfacing so that our men 
and women in uniform are able to vote.
    But they are not the only people overseas. I mean, we have 
Mormon missionaries, we have State Department, we have millions 
of Americans overseas who want to vote. You know, I come from 
Silicon Valley, so when you are talking technology and you use 
the word ``10 years,'' my constituents go crazy, they are 
thinking 10 months.
    So we will see how this develops. I appreciate your 
testimony. We look forward to your continued good service to 
our country. And we will keep the record open. If there are 
additional questions, Members will have 5 days to submit them, 
and we would ask if that occurs, that you respond to those 
questions.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Lofgren. We will call forward the next panel, please. 
Thank you very much.
    As the next panel is coming forward, I will introduce them. 
First we have Ms. Melanie Campbell, who is the Executive 
Director and CEO of the National Coalition on Black Civic 
Participation. She is a nationally recognized expert on black 
civic participation, election reform, voting rights and 
coalition building. Throughout her 20 years of experience, she 
has led a number of election reform and voting participation 
programs that include the VOTE Election Reform Task Force, 
Unity Civic Engagement and Voter Empowerment Campaign, and the 
Black Youth Vote Program.
    Next we have Ms. Patty Ferguson Bohnee. Ms. Bohnee is a 
Native vote election protection coordinator with the National 
Congress of American Indians. She has extensive experience in 
election law and has assisted in voting rights litigation on 
behalf of tribes. She is also an associate clinical professor 
and director of the Indian legal clinic at the Sandra Day 
O'Connor College of Law at Arizona State University.
    Next, Mr. Arturo Vargas. Mr. Vargas is the Executive 
Director of the National Association of Latino Elected and 
Appointed Officials, known colloquially as NALEO. As Executive 
Director, Mr. Vargas has worked to engage the Latino community 
in civic participation, as well as to ensure that the election 
system enhances opportunities for all Americans. Prior to 
joining NALEO, he was vice president for community education 
and public policy at MALDEF, the Mexican American Defense and 
Educational Fund, as well as education policy analyst at the 
National Council of La Raza in Washington, D.C.
    We have next Mr. Eric Eversole, who is a member of the 
Republican National Lawyers Association. He is a former 
litigation attorney for the United States Department of Justice 
Civil Rights Division, where he brought numerous cases to 
protect military and overseas voting under the Uniformed and 
Overseas Citizen Absentee Voting Act.
    And finally, we have Mr. Doug Chapin, who is the founding 
director of electionline.org, which is a nationally recognized 
voice in election administration policy, since 2001. Prior to 
his work with the Pew Center on the States, he was in private 
legal practice in Washington, D.C., as well as an elections 
counsel with the U.S. Senate Committee on Rules and 
Administration.
    So we welcome all of you. As with the prior panel, your 
full written statement will be made part of the record. We 
would ask that your testimony consume about 5 minutes. When you 
have a minute left, the little orange light will go on that 
machine in the middle of the table, and when it turns red, it 
means your 5 minutes are up, and we would ask you to conclude 
the statement.
    We will begin with you, Ms. Campbell.

 STATEMENTS OF MELANIE CAMPBELL, EXECUTIVE DIRECTOR, NATIONAL 
COALITION OF BLACK CIVIC PARTICIPATION; PATTY FERGUSON BOHNEE, 
NATIVE VOTE ELECTION PROTECTION COORDINATOR, NATIONAL CONGRESS 
    OF AMERICAN INDIANS; ARTURO VARGAS, EXECUTIVE DIRECTOR, 
NATIONAL ASSOCIATION OF LATINO ELECTED AND APPOINTED OFFICIALS; 
  ERIC EVERSOLE, FORMER ATTORNEY, CIVIL RIGHTS DIVISION, U.S. 
  DEPARTMENT OF JUSTICE; AND DOUG CHAPIN, DIRECTOR, ELECTION 
             INITIATIVES, PEW CENTER ON THE STATES

                 STATEMENT OF MELANIE CAMPBELL

    Ms. Campbell. Thank you, Madam Chair and members of the 
Subcommittee on Elections. My name is Melanie Campbell. I am 
the CEO and Executive Director of the National Coalition on 
Black Civic Participation and convener of the Black Women's 
Roundtable.
    The national coalition trains and engages African American 
leaders, youth organizers and activists on the best practices 
to increase civic engagement and voter participation and, in 
more recent years, voter protection and assistance.
    The 2008 election cycle was indeed the most historic 
election of our lifetime. Not only did we see record voter 
turnout in the African American community, we witnessed record 
turnout among young people and other marginalized communities. 
And, yes, we also witnessed the first African American to be 
elected President of the United States of America.
    As historic and record-breaking as the 2008 election cycle 
was, it is vital that we also remember there were thousands of 
Americans who went to the polls on election day to cast their 
historic vote and were turned away mainly because of election 
administration errors, or they were victims of voter deception 
or voter intimidation.
    What went wrong? In 2008, our State-based Unity '08 
coalitions in 11 States witnessed a continued need for election 
reform that mostly reiterated the need to improve our election 
administration system, specifically a need to consider 
universal or same-day registration as a viable solution to 
alleviate one of the most consistent problems voters face on 
election day, and that is being denied the right to vote 
because someone did not process their voter registration card 
properly, or their registration was mistakenly or illegally 
removed from the voting rolls in their community.
    In my experience of leading grassroots, nonpartisan voter 
participation campaigns for over 20 years, voter registration 
problems at the polls have been a persistent challenge, and 
voter fraud accusations have been too often misdiagnosed by 
some elected officials on a national and State level for 
decades.
    In 2008, for example, our State coordinator Cynthia Downs 
Taylor in the Hampton Roads area had to work with students who 
had been intimidated with threats that they would lose their 
financial aid if they were registered to vote, not getting the 
specific information that really impacted some students, but 
most students that is not the case.
    The current voter registration process during major 
elections like we experienced in 2008 creates surges in 
registration as deadlines approach, and this volume contributes 
to backlogs and processing delays for our election 
administrators. On behalf of many of us, not all of us, in the 
civic engagement NGO community, it would be wonderful for us if 
we had to get out of the voter registration business, because 
universal registration or same-day registration would take that 
need away, and we would focus more on civic education and other 
areas that are needed.
    We also helped to sponsor the 1-866-MYVOTE1 hotline. From 
January to December, we received over 300,000 calls on that 
hotline, and the top two problems were poll locator problems. 
The number one problem was registration.
    What went right. We believe early voting is what went 
right. Listening to the last panel, many of the things I 
concur, some I don't, but many I concur that it made it easier, 
it took the pressure off. It put the pressure on for some of us 
who were in a nonpartisan position. We had to work even harder 
over the period, but we believe it had a very, very positive 
effect.
    The national coalition joins the Brennan Center for 
Justice, the Lawyers Committee for Civil Rights Under Law, the 
Advancement Project, NAACP Legal Defense Fund, and countless 
others in calling for reform of the voter-registration process. 
As I mentioned, we believe early voting is something that we 
should look at. We concur with the Advancement Project 
specifically that Congress should consider enacting legislation 
to require States in which voter lines were longer than 45 
minutes in 2004 or 2008 to submit a remedial plan to eliminate 
or minimize wait lines.
    I am getting close to my moment.
    In closing, we must all remember that democracy is about 
people, voice and opportunity. Elections are about shaping the 
future. Election reform is a continuum that requires constant 
review as reform policies are implemented. In the words of 
global rights advocate Dr. Keith Jennings, every practice that 
discourages people from voting is a blow to democracy.
    Thank you for this opportunity, and I look forward to any 
questions you may have. Thank you.
    Ms. Lofgren. Thank you very much.
    [The statement of Ms. Campbell follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Lofgren. We turn now to Ms. Ferguson Bohnee.

               STATEMENT OF PATTY FERGUSON BOHNEE

    Ms. Bohnee. Thank you very much, Chairwoman Lofgren, 
members of the subcommittee. On behalf of the National Congress 
of American Indians, thank you for inviting us here to present 
testimony on the 2008 elections in Indian country.
    NCAI is the oldest and largest national organization 
representing tribal governments. NCAI also runs the National 
Native Vote Program, which is designed to develop election 
infrastructure within our tribal communities and to encourage 
and empower Native Americans to vote.
    In 2008, with the assistance of tribes, we organized Native 
vote campaigns in 20 States. One portion of our Native vote 
campaign is the Election Protection Project, and I serve as the 
Election Protection coordinator for Arizona.
    I would like it to briefly address the history of voting 
within Indian country, and then I will discuss some lessons 
learned from this election, particularly with regard to the new 
voter ID requirements.
    Native Americans were denied the right to vote longer than 
any other group in the United States, 54 years after African 
American men and 4 years after women. Unfortunately after the 
Federal right was granted in 1924, many States continued to 
formally deny Native Americans the right to vote well into the 
1960s.
    Historically, States used several arguments to justify the 
continued disenfranchisement of Native voters. Many of these 
prohibitions were embedded in the State constitution. For 
example, in one State, Indians were not considered civilized, 
and their continued participation in their tribal communities 
precluded participation in other elections. The requirement 
that Native Americans be civilized before been being granted 
the right to vote has had perhaps the most long-lasting 
negative effects in Indian country. It has perpetuated the 
pervasive culture that tribal elections are for Native, and 
State and Federal elections are for non-Natives.
    There are historical issues surrounding voter registration. 
Specifically past governmental efforts at registering or 
identifying a list of Native Americans have been for the 
purpose of taking land, relocating the communities, or 
forcefully removing our children to boarding schools. These 
experiences are ingrained in the collective memory in many 
Native communities and are apparent in the ongoing resistance 
to register with any government entity. This includes 
registering to vote. It also includes registering for a State 
government ID card. Thus we find the trend to require State-
issued photo ID cards for voting purposes very concerning.
    In addition to the historical hesitancy behind registering 
with the State government, there are a number of other 
practical reasons why tribal members lack State-issued 
identification. The REAL ID Act and lack of birth certificates 
are two examples. Tribal ID documents are not treated as 
acceptable forms of ID for obtaining a REAL ID-compliant 
driver's license. The practical effect of this is a decrease in 
the access to State driver's licenses for Native Americans as 
tribal documents are our most common form of ID.
    If tribal documents are not accepted by States, the next 
document usually required is a birth certificate, and this also 
is not an option for much of Indian country. Many Natives are 
born outside of a modern hospital system because they are born 
at home. Many never receive a birth certificate. In fact, the 
Indian Health Service did not even begin issuing birth 
certificates until 1968. It is estimated that as many as 30 
percent of the population of our reservations do not have birth 
certificates.
    Even if Native Americans did have perfect access to State 
IDs, they should not be forced to obtain them. Tribal 
governments issue their own identifying documents. The Federal 
trust and treaty relationship is directly between the tribes 
and the Federal Government, not the State government. Tribal 
members should not be forced to go to a State government to 
obtain proof of who they are in order to participate in the 
Federal election process. Tribal government ID documents should 
be accepted just as any other government document.
    Unfortunately there are dozens of documented problems with 
acceptance of tribal IDs for voting purposes. Over the last 
three election cycles, the States have become more aware of the 
need to accept tribal IDs, but this is only after years of 
State-by-State advocacy by the tribal folks. Of the 20 Native 
vote States surveyed regarding their acceptance of ID for 
voting, only a handful include tribal ID encoder regulations. 
In many instances it was a discretionary decision made by the 
secretary of state.
    From my experience as a Native Vote leader in Arizona, this 
ad hoc approach to tribal ID is problematic. In 2004, Arizona 
passed a law to require IDs for any elector voting in person on 
election day. Arizona's secretary of state adopted procedures 
limiting the types of ID which fail to take into consideration 
the inability of many reservation voters to obtain such ID, and 
knew that several tribes did not issue qualifying ID. As 
predicted by counties and tribes, the ID requirement resulted 
in a lower turnout on reservation and numerous uncounted 
ballots for failure to meet the ID requirement.
    Even with all the success over the years, there remain a 
number of legal and cultural obstacles that hinder full 
participation by America's Native community. Additional 
examples are included in my written testimony.
    The Native Vote campaign and elected tribal leaders seek to 
empower participation in elections, but without alternatives to 
new ID requirements, it remains challenging for Native 
Americans to fully participate in the election process.
    If IDs are going to be required for any voting purposes, we 
ask for two things: Amend the REAL ID Act to accept tribal 
documents as proof of ID and citizenship for purposes of 
obtaining a State driver's license, and amend HAVA to clarify 
that where any form of ID is required, tribal documents will 
also be accepted.
    Thank you so much for your time and commitment to hearing 
from the Native community.
    Ms. Lofgren. Thank you very much.
    [The statement of Ms. Bohnee follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Lofgren. Mr. Vargas.

                   STATEMENT OF ARTURO VARGAS

    Mr. Vargas. Thank you, Madam Chair, Mr. Harper. Thank you 
for the invitation to testify before you today.
    Through our voting engagement, voter protection and 
information hotline programs, we learned about the challenges 
of Latino voters in 2008. The majority of calls we received 
were questions about basic election information. There was 
significant confusion among voters about each State's primary 
system, and I am surprised no one here has discussed the issues 
that we had during the primaries, which I will discuss a little 
bit, questions about whether or not primaries were open, closed 
or modified, or if it was a caucus.
    We assisted callers with locating their polling places, 
determining their registration status. Some callers indicated 
they never received their election materials; others reported 
registering before the deadline and never having their 
applications processed. Others found that their names were 
missing from the rolls despite having voted in previous 
elections. And at least 30 voters on our hotline reported being 
turned away from the polls without being offered a provisional 
ballot. Many callers also indicated experiencing challenges 
related to language accessibility, suggesting that some Latino 
voters were made to feel uncomfortable by poll workers when 
they did not speak much English. Some callers reported that 
they never received election materials in their language. 
Another significant problem faced by Latino voters was 
confusion surrounding voter ID requirements, both with HAVA and 
State laws.
    We offer the following recommendations so that voting can 
be accessible to all Americans. State and local jurisdictions 
must undertake vigorous efforts to improve their practices for 
providing basic information to new voters and in a timely 
manner. We take for granted that the public understands how to 
vote. Whether you are a first-time voter at the age of 18 or a 
first-time voter at the age of 88 because you are a naturalized 
citizen, oftentimes voting can be a confusing process, and 
jurisdictions need to provide more timely and more relevant 
information.
    Jurisdictions should implement effective systems to allow 
voters to quickly verify their voter registration status. The 
most effective system we have seen are on-line computer-based 
systems which allow for instant verification of someone's 
registration status.
    State and local jurisdictions must make significant 
improvements of the voter registration practices and 
maintenance of the voter registration databases.
    State and local jurisdictions must undertake vigorous and 
effective efforts to provide language assistance. As language-
minority citizens, we need special assistance as what is 
required by Federal law.
    Jurisdictions must improve poll worker training and 
recruitment, especially for bilingual poll workers, and their 
training must include the specific needs and rights of 
language-minority voters, the nondiscriminatory application of 
voter ID requirements, the proper use of provisional ballots 
and basic customer service.
    The Department of Justice should strengthen its enforcement 
of the Voter Rights Act, HAVA and the National Voter 
Registration Act, and enclosed with my testimony are specific 
recommendations we made to the Department of Justice.
    States should cease efforts to impose proof of citizenship 
and voter ID requirements that are more restrictive than those 
required by the Help America Vote Act. There has been an 
alarming increase in State efforts to impose proof of 
citizenship and voter ID requirements that go beyond the 
Federal mandate. Restrictive voter ID requirements impose 
significant burdens on certain voters. Some of the voter ID 
laws require specific address matches, as mentioned by the 
previous panel. We actually received calls from voters who did 
not have a specific address and were turned away from the 
polls.
    State and local jurisdictions must establish stronger 
partnerships with community-based organizations. These 
organizations often can help election officials implement more 
accessible voting practices.
    Political parties and policymakers should examine the 
impact the 2008 accelerated primary season on voter turnout. We 
actually saw much more enthusiasm and much more campaigning, 
for example, Chair Lofgren, in our State of California. Rarely 
have we seen candidates come and campaign during the primaries. 
That really invigorated the electorate and I think contributed 
to a stronger turnout. We should look at the consequences of 
perhaps national or regional primaries.
    The public sector should invest more in nonpartisan voter 
education and engagement efforts. Again, as you know, in 
California there was a massive amount of resources invested in 
the primaries, but come the general election, candidates were 
not to be seen. All the attention was shifted away to 
battleground States, and voters in States like California were 
largely ignored. Two-thirds of Latino voters live in States 
that were largely ignored. We should have an investment in 
resources in nonpartisan efforts so that all voters are engaged 
in our elections, not just voters in battleground States.
    Thank you for the opportunity to testify.
    Ms. Lofgren. Thank you very much.
    [The statement of Mr. Vargas follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Lofgren. Mr. Eversole.

                   STATEMENT OF ERIC EVERSOLE

    Mr. Eversole. Good morning, Madam Chair. Thank you for the 
opportunity for allowing me to testify today regarding military 
voting in 2008.
    I wish I had good news to tell you, but I don't. Every 
piece of data that has been collected thus far, including a 
survey or study conducted by the Overseas Vote Foundation, as 
well as evidence that I have been able to gather personally 
from the States, paints an absolutely dismal picture for the 
military voter in 2008. In Minnesota, for example, 15.7 percent 
of eligible military voters and their dependents were able to 
cast a valid absentee ballot in the 2008 election; 15.7 percent 
of 22,000 citizens were all that were allowed to participate. 
In Missouri it was 18.8 percent; in Nebraska 14; 13\1/2\ 
percent in Arkansas; and saving the worst for last, Alabama, 
where out of 91,000 military and overseas voters, 6.3 percent 
were able to cast an absentee ballot that counted. It is truly 
shocking and shameful.
    If there is one thing to take away from the 2008 election 
with regard to military voting, it is this: Military voters 
cannot suffer one more Federal election without some form of 
reform to ensure that they are able to vote in their Federal 
elections.
    With that being said, I have offered a few recommendations 
for the subcommittee to consider. I have tried to take a look 
at possible legislative fixes that would provide a significant 
benefit to military voters without creating a lot of 
controversy, and also would be easy for the States to implement 
by 2010. I know that the subcommittee is considering things 
like Internet voting, but even if something like that passes, 
it may be 8, 9, 10 years before it is actually implemented, and 
certainly wouldn't be implemented, I doubt, before the 2010 
election.
    But that being said, I would like to focus on at least two 
of the recommendations that I did make. The first one is there 
has to be some clarification in the Uniformed and Overseas 
Citizens Absentee Voting Act to make clear that jurisdictions 
have to provide military voters with 45 days to receive and 
cast and return their absentee ballots.
    Now, States may decide to do it differently. In 
jurisdictions that allow 45 days, some of them decide to mail 
the ballots out about 30 days before the election and allow 15 
days for the ballot to come back. Some States just mail out 
their ballots 45 days before the election. But currently there 
are 10 States and the District of Columbia that allow less than 
35 days. And part of the problem here is that the Department of 
Justice, the Voting Section has taken the position that while 
it recommends 45 days, and every Federal agency that has looked 
at this recommends 45 days, every nonprofit group that has 
looked at this recommends 45 days, the Justice Department has 
taken the position that it will not enforce UOCAVA unless a 
State sends out a ballot less than 30 days before the election.
    They have no study that I am aware of that supports that 
viewpoint, and, in fact, when I went back and looked at their 
most recent lawsuits, they cite the Federal Voting Assistance 
Program, the former Director Polly Brunelli as the expert for 
30 days.
    The results, I think, are pretty clear with regard to how 
that impacts the military and overseas voter. As several people 
have mentioned, a very large number of the ballots are coming 
back late. In Minnesota, for instance, of the rejected ballots 
that were rejected by the States, 70 percent were rejected 
because they came back after the deadline. So that is one 
recommendation.
    The second recommendation that I would make and ask this 
subcommittee to consider is that it should consider amending 
section 7 of the National Voter Registration Act and make 
military pay and personnel offices a voter registration agency 
under section 7 of that act. That would essentially require 
those pay and personnel offices to provide voter registration 
materials when a servicemember comes in, which, in fact, most 
servicemembers, as some of you may know, come in to their pay 
and personnel offices when they change their permanent duty 
station or prior to going on deployment. So every time they 
change their duty station, or every time they go on to 
deployment, they have to fill out a bunch of administrative 
forms anyway. It seems to me reasonable that one of the forms 
should be a Federal postcard application.
    With that being said, I thank you again for allowing me to 
testify, and I look forward to your questions.
    Ms. Lofgren. Thank you very much.
    [The statement of Mr. Eversole follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Lofgren. All the bells and whistles mean that we have a 
vote on the floor of the House. We would like to get Mr. 
Chapin's testimony and then our quick questioning so that we 
don't hold you back over past the voting time.
    Mr. Chapin.

                    STATEMENT OF DOUG CHAPIN

    Mr. Chapin. My name is Doug Chapin, and as of January 2009, 
I am director of election initiatives at the Pew Charitable 
Trusts' Center on the States, a division of Pew that seeks to 
advance nonpartisan, pragmatic policy solutions to issues 
facing States and their citizens.
    Pew has invested more than $20 million in the field of 
election administration since 2001. Our work in elections 
follows an approach used by Pew across its areas of interest. 
First we take the performance-based approach to election 
administration. Americans demand an election system that offers 
optimal performance, administrative efficiency, and cost-
effective use of public funds. This is especially important in 
the currently constrained fiscal environment.
    Second, Pew considers it a central part of our mission to 
involve election officials in our work. State and local 
election officials have a unique and critical role in any 
effort to improve our election system, both because of intimate 
understanding of the process and their responsibility to 
implement any changes. Indeed in 2008, Pew partnered with 
election officials from more than 20 States, including Mr. 
Gilbert and Mr. Cunningham, as part of our work to study and 
test changes to the status quo.
    Finally, we routinely involve leaders from the private 
sector and others outside the election community, taking 
advantage of their expertise to help election officials 
confront pressing issues by sharing insights and serving as a 
source of ideas and support for the most innovative approaches 
to reform.
    With that as background, let me quickly turn to 
observations about the performance of the American election 
system in 2008.
    The biggest story of 2008 was that the system worked better 
than anticipated. Even those of us who adamantly refused to 
predict a meltdown were holding our breath as the polls opened 
on November 4th because of the combination of a system in flux 
and potentially record turnout. The good news is the meltdown 
didn't happen. By and large our election system appeared to 
handle the historic turnout of voters. In fact, according to a 
new national MIT survey conducted for Pew with support from 
AARP and the JEHT Foundation, most Americans who voted in 2008 
had an overall positive experience.
    Fewer than 2 percent experienced registration problems, 
most of whom resolved the problem at the polls with the 
provisional ballot--with a regular rather than a provisional 
ballot. And fewer than 2 percent had any problem with voting 
equipment regardless of the type of equipment they used.
    And yes, the survey's findings also raised concerns. While 
2 percent experiencing a problem may seem small, that is a 
number large enough to affect a very close race.
    The bigger story is that MIT found that 38 percent of 
nonvoters, or the equivalent of over 8 million people, said 
problems with the election system were a major factor in their 
nonvote in the election. I would like to submit a copy of the 
executive summary of that report which is released today.
    Ms. Lofgren. Without objection, that will be made part of 
the record.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Chapin. Applying these findings to the estimated 23.2 
million registered voters who did not cast a ballot, MIT 
estimates that approximately 3 million did not cast a ballot 
because of a problem with registration. Between 2 and 3 million 
did not vote because of long lines. More than 2 million could 
not find out where to vote. Approximately 2 million requested 
but did not receive an absentee ballot, and almost 2 million 
did not vote because they said they did not have proper ID.
    What worked on election day? Voters had better information. 
Last fall, Pew released a report entitled ``Being On Line Is 
Not Enough,'' in which we found that States had a long way to 
go to do a better job of making voting information available 
online.
    Fortunately, we were also able to offer States a solution 
through a partnership with State and local election officials, 
the League of Women Voters and Google, called the Voting 
Information Project, which seeks to make information available 
on line. Our goal is to take that project nationwide in the 
next few years.
    Second, voters cast ballots before election day in ever 
greater numbers. Election officials, the media, candidates and 
advocacy organizations were very successful in getting voters 
to vote by mail or early in order to avoid the crush on 
election day. In fact, early voting was so popular that the MIT 
survey found that many early voters stood in lines twice as 
long as their counterparts on election day.
    As more States discuss whether to adopt or how to adopt 
early voting, Pew is there conducting research to help them 
study the issues and opportunities involved. Our research, 
which we will be releasing over the next several months, will 
consider what does and doesn't work and help States think about 
next steps.
    Unfortunately, not everything worked as well. Voter 
registration captured a lot of attention in 2008. We have a 
system in this country which is still very much paper-based, 
requires election offices to hand-enter and hand-match 
registration information, which makes it susceptible to human 
error. Most often election offices are inundated with 
registration forms at the end of an election cycle when time 
and resources are tight, many of whom come from outside groups 
which require extra attention to build the rolls.
    Problems with registration were largely concentrated among 
younger voters and people who moved. In fact, one in four 
people who had moved residences within a year of election day 
reported a problem with their registration.
    States are already taking a lead on registration reform. 
Secretaries of State Robin Carnahan of Missouri and Trey 
Grayson of Kentucky recently wrote an op-ed in Roll Call in 
which they issued a call for voter registration modernization. 
I would like to offer a copy of that op-ed for the record.
    Ms. Lofgren. Without objection.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Lofgren. We are going to have to ask you to wrap up, 
because we have to go to the floor to vote.
    Mr. Chapin. Yes, ma'am.
    Pew shares the Subcommittee's concerns about military and 
overseas voting. I would like to commend everyone for their 
attention to better data on election performance, focusing on 
cost efficiency, and I want to also again echo the call to 
involve State and local officials and people from the private 
sector and elsewhere.
    [The statement of Mr. Chapin follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Lofgren. Thank you very much for your testimony, and 
for the testimony of you all. We have about 7 minutes until the 
vote is called, so I will turn to Mr. Harper for his questions.
    Mr. Harper. Thank you, Madam Chair. We will make it quick 
because I know we have to go vote.
    Mr. Chapin, your numbers that you stated, 3 million that 
had problems or couldn't vote because of registration problems, 
or 2 million because of other problems, are those actual 
figures, or are those extrapolations that were done?
    Mr. Chapin. Those were extrapolations done from the survey 
findings to the estimated number of nonvoters.
    Mr. Harper. I wish we had time to go into that on the 
numbers and those statistics and those things, because, as you 
know, 69 percent of all statistics are made up on the spot--or 
64 percent, or whatever it is. Anyway, looking at all those 
numbers is an ongoing issue.
    I would say personally I do support the sovereignty of the 
tribes, so that is something we are willing to look at. We want 
to make sure that we do something that is fair and provides 
safeguards that are in there.
    The biggest problem that I see is in the area of military 
voting, because military personnel cut across all racial lines, 
all areas, all segments of our society. And the fact we had a 
rather dismal record of making sure the military voters get 
that opportunity to vote who particularly may be overseas, 
whether that is the time lag or the delivery lag, whatever it 
may be, that is something that we can't have happen again. And 
I think it will go towards the goal that you have to make sure 
that all citizens have the opportunity to vote. We can't make 
every citizen vote, but we can give them that opportunity. It 
is a privilege and a responsibility. But the military is 
another area.
    One question I would have, Ms. Campbell, on voter ID--and I 
know we are on a very short time, so I will ask a quick 
question--I do believe that voter ID is an acceptable way to 
prevent voter fraud that we might have in different regards. 
And one thing that you had indicated in the materials is about 
AARP, I believe you said, estimated that in Georgia that maybe 
36 percent of those over the age of 75 couldn't have those 
requirements. And I think some States have addressed that by 
excluding those over a certain age. That has been one way to 
address that.
    Driver's license problems. You know, my son has special 
needs, so he can't drive, but he has a State photo ID. So when 
I have a chance for him to fly or fly with me, I have his photo 
ID. It was very easy to get it. Maybe there is a way there, 
``voter ID light.'' Do you think that is something in 
conjunction that could work?
    Ms. Campbell. I think part of it is there is no standards, 
and a lot of this was done, laws were passed. Not necessarily 
all the facts are there. So the challenges when our elected 
officials create legislation that is not based on facts all the 
time, it is problematic for all of us.
    Mr. Harper. Ms. Campbell, would you be willing to look at 
all issues?
    Ms. Campbell. Oh, we look at all issues. Definitely. Madam 
Chair, we have a survey that we did on voter experiences, and 
once that is finalized, I would like to see if that can be 
entered for the record as well.
    Ms. Lofgren. We would love to see the report.
    Mr. Harper. Madam Chair, I ask unanimous consent to submit 
the following documents for the record: One, a U.S. Census 
Bureau table about voter turnout; two, a collection of voter 
fraud articles and court documents; and three, a 2007 study by 
the Institute of Public Policy on voter identification laws.
    Ms. Lofgren. Without objection, those items will be made a 
part of the record.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Lofgren. And the gentleman yields back.
    I will be very quick. First let me say the testimony has 
been very helpful, and I appreciate it very much. There are 
things to follow up with from here.
    I would just like to say, Ms. Bohnee, that your testimony 
reminded me of a field hearing--it wasn't much of a field 
hearing, honestly--that I attended in New Mexico several years 
ago. And the individual who testified from the Navajo Nation 
went through why the photo ID issue wouldn't work. He said, 
okay, we don't have driver's licenses, and we don't have birth 
certificates, and, by the way, 80 percent of the tribe refuses 
to have their picture taken because they think it steals their 
soul. And so basically you are saying the Navajos are not going 
to be permitted to vote. And it just became so stark to me in 
that testimony what had been done.
    So I think the idea that a tribal ID is not given the 
stature it should. It is a very problematic thing, and I would 
look forward to working with the gentleman. We have got to fix 
that.
    Clearly we have to deal with overseas voters, most 
especially military, but not just military. We have other 
Americans who are doing the country's bidding. Whether it is an 
AID or the awards bidding on a mission, we need to find a way 
for those people to be able to participate. I am confident that 
we can do that.
    So again, we will hold this record open for 5 days. If 
there are additional questions, we will get them to you and ask 
in that case that you respond as promptly as possible. We look 
forward to additional information.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Lofgren. And I will just say this: People don't realize 
that the witnesses who come here are volunteers. They are here 
just to help inform the United States House of Representatives 
so we can make good decisions and make a better country. We 
really do appreciate your service in that regard today.
    We thank you, and this hearing is adjourned.
    [Whereupon, at 11:38 a.m., the subcommittee was adjourned.]
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







</pre></body></html>
